          B-K~
     so
   F -,-
           -?
                .5
           $q:,+ %i I
 V

                           UNITED STATES GOVERNMENT
2 i ti11
 %
          'ti+j,           National Labor Relations Board
   "bOU
      \
          -*   b',(
                      a0
                           Office of Inspector General

Memorandum

April 27, 2006

To:            Richard A. Siege1
               Associate General Counsel

               Karl E. Rohrbaugh
               Finance Branch Chief
                                      A
From:          Jane E. Altenhofen
               Inspector General

Subject: Inspection Report No. OIG-INS-42-06-02: Witness Fees

        We initiated this inspection in February 2006 to evaluate the National Labor Relations
Board's (NLRB or Agency) processes for paying fees and travel costs to witnesses. Witness
claims were generally paid within 90 days of the appearance before the Board. Approximately 9
percent of the Fiscal Year (FY) 2005 obligations had been unliquidated for more than 90 days as
of September 30,2005, and were still unliquidated as of March 24,2006. Witnesses were paid
for mileage claims that were significantly greater than the direct route.


SCOPE

         We reviewed laws and regulations related to payments for witness fees and witness
travel. We reviewed Agency policies, including Chapter FIN-5 of the Administrative Policies
and Procedures Manual, Witness Fees and Travel Allowances, dated September 9,2005. We
interviewed staff in the Division of Operations-Management (Operations-Management) and the
Finance Branch (Finance) about the processes for approving and paying fees and travel costs for
witnesses. We selected a random sample of 30 obligations for FY 2005 payments of witness
fees and travel, which resulted in 154 claims, and determined whether the identified procedures
were followed and the amounts paid to witnesses were correct. Obligations are made by case
and may include multiple witnesses. We compared the payments for witness fees and witness
travel to the amounts obligated and determined the amount of obligations still outstanding as of
March 20.2006.

        We conducted this review from February through April 2006. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.
BACKGROUND

        Federal statutes provide that a witness in attendance at any court shall be paid a $40 fee
for each day's attendance, including time necessarily occupied in going to and returning from the
place of attendance. The witness is also eligible for a mileage allowance for use of a privately
owned vehicle, transportation fees such as tolls, and a subsistence allowance if an overnight stay
is required. The National Labor Relations Act applies this requirement to witnesses summoned
before the NLRB.

       Witnesses subpoenaed by a Board agent are to be advised that they are entitled to the
attendance fee and reimbursement for travel expenses and should be provided with a copy of the
Form NLRB-5494(E), Claims for Witness Attendance Fees, Travel, and Miscellaneous Expenses
(Witness Claim Form). After appearing at the proceeding, the witness should promptly complete
and sign a Witness Claim Form. The Board agent is responsible for approving the Witness
Claim Form. Thereafter, staff in the Regional Offices review the forms and submit the claims to
Finance for processing and payment.

       During FY 2005, the Agency obligated approximately $64,000 in witness fees and
$53,000 for witness travel. Obligations are recorded based on the estimated number of witnesses
or on actual claims received after a hearing. About $15,000 in witness fees and $10,000 for
witness travel was not paid by the end of FY 2005.


RESULTS

Obligations

       Claims for witness fees and witness travel were generally processed shortly after the
witness appearance. For obligations in our sample, 89 percent of the payments were made
within 90 days of the witness' appearance before the Agency. The remaining 11 percent
occurred between 91 and 180 days of the witness' appearance. All payments were within 90
days of the funds being obligated.

        The Agency does not review obligations of witness and related travel fees during the
fiscal year in which they relate, resulting in the Agency losing the use of funds that could have
been deobligated. The payment history relating to these obligations indicate that funds could be
deobligated 90 days after the obligation is made.

        As of March 24, 2006, 126 FY 2005 obligations for witness fees and witness travel had
unliquidated amounts remaining, totaling $20,460. About $10,877 (53 percent) of this amount
was outstanding longer than 90 days at the end of FY 2005, representing approximately 9 percent
of the FY 2005 obligations for witness fees and witness travel.

       Finance stated that they review and deobligate outstanding funds for witness fees and
witness travel during April of the subsequent fiscal year. Finance informs the Regional Offices

                                                2
with unliquidated witness claims that the funds will be deobligated unless the Regional Office
states a reason that the witness claim should be left open. The Finance Chief said that this allows
for the cleanup of the accounting records. Deobligations after the expiration of the fiscal year
are unavailable for new obligations, but are available to pay claims from that fiscal year. The
Finance Chief stated that he is currently performing this review and anticipates that all the FY
2005 unliquidated witness claims will be deobligated.

Payments

        Witness Claim Forms were generally calculated correctly. Errors found in a limited
number of claims included providing full meal and incidental expense allowances on the first and
last days of eligibility instead of the allowed 75 percent, not providing witness fees while in
travel status, incorrect mileage reimbursement rates, and mathematical errors. Also, some claims
were not supported by subpoenas and some were not certified by the Board agent. A significant
number of claims, however, contained inflated mileage reimbursement amounts.

        The Federal Travel Regulations require that mileage for use of a privately owned vehicle
be determined by the use of a standard highway mileage guide or by the actual miles driven as
shown from odometer readings. The regulations generally require travelers to travel to their
destination by usually traveled routes. Reimbursement is limited to the cost of travel by a direct
route or on an uninterrupted basis, and the traveler is responsible for any additional costs.

        Thirteen of the 110 Witness Claim Forms with a mileage reimbursement claimed greater
than the amount calculated as the direct route by more than 20 miles, an amount that we consider
significant. The 13 instances included mileage that was overclaimed by approximately 580
miles, resulting in an overpayment of $225.65. We did not include a suggestion for the Agency
to recover these overpayments, in part, because the Agency does not have regulations that
provide a debtor appeal and resolution process. We identified this condition in our Review of
Agency Procedures for the Collection of Non-tax Delinquent Debt, OIG-INS-17-02-01, issued on
February 13, 2002.

       Operations-Management stated that the Regional Office staff verify the mathematical
accuracy of the witness' claim, but do not verify the reasonableness of the amount claimed for
mileage. Finance also stated that they do not verify the mileage claim.


SUGGESTIONS

We suggest that the Finance Chief coordinate with the Operations-Management Associate
General Counsel to:

   1. Pursue methods that would allow deobligation of witness and travel fees during the fiscal
      year in which the obligation occurs.

   2. Remind Regional Offices that they should review mileage claims for reasonableness as
      part of approving the Witness Claim Forms.

                                                3
Management Response

        The Finance Chief disagreed with our suggestion to review witness fee claims during the
fiscal year in which the obligation occurred because these claims are based on a witness
appearance and therefore are legitimate obligations. He noted that the funds cannot be
deobligated and reused because Finance cannot determine which witnesses will not submit a
claim. The Finance Chief also disagreed with our conclusions regarding witness mileage claims.
He stated that justifiable reasons for claims being higher than we concluded may exist and that
Finance would be unaware of these reasons when performing the review.

        The Operations-Management Associate General Counsel stated that he would be in favor
of a thorough consideration of both suggestions. Before proceeding with initiatives related to the
review of witness fee obligations, he wanted to consult with Regional Directors for their views
regarding the impact on casehandling.

       We revised both suggestions to address these concerns.




                                                4
